  Report No. D-2009-063           March 24, 2009




Funds Appropriated for Afghanistan and Iraq Processed
    Through the Foreign Military Sales Trust Fund
Additional Information and Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest ideas for or to request future audits, contact the Office of the Deputy Inspector General
for Auditing at (703) 604-9142 (DSN 664-9142) or fax (703) 604-8932. Ideas and requests can
also be mailed to:

                      ODIG-AUD (ATTN: Audit Suggestions)
                      Department of Defense Inspector General
                      400 Army Navy Drive (Room 801)
                      Arlington, VA 22202-4704




Acronyms and Abbreviations

AAA                           Army Audit Agency
AECA                          Arms Export and Control Act
ASFF                          Afghanistan Security Forces Fund
DIFS                          Defense Integrated Financial System
DSCA                          Defense Security Cooperation Agency
FMF                           Foreign Military Financing
FMR                           Financial Management Regulation
FMS                           Foreign Military Sales
GAO                           Government Accountability Office
IG                            Inspector General
IRRF                          Iraq Relief and Reconstruction Fund
ISFF                          Iraq Security Forces Fund
LOA                           Letter of Offer and Acceptance
MNSTC-I                       Multi-National Security Transition Command-Iraq
                                     INSPECTOR GENERAL
                                    DEPARTMENT OF DEFENSE
                                     400 ARMY NAVY DRIVE
                                ARLINGTON, VIRGINIA 22202-4704



                                                                           March 24, 2009

MEMORANDUM FOR DIRECTOR, DEFENSE SECURITY COOPERATION AGENCY


SUBJECT: Report on Funds Appropriated for Afghanistan and Iraq Processed Through the
         Foreign Military Sales Trust Fund (Report No. D-2009-063)

We are providing this report for review and comment. We considered comments from the
Director, Defense Security Cooperation Agency when preparing the final report.

DoD Directive 7650.3 requires that all recommendations be resolved promptly. The Defense
Security Cooperation Agency comments to Recommendation A were nonresponsive and the
comments to Recommendation B were partially responsive. After reviewing management
comments, we revised Recommendation B. We request additional comments on
Recommendations A and B by April 24, 2009.

Please provide comments that conform to the requirements of DoD Directive 7650.3. If possible,
send client comments in electronic format (Adobe Acrobat file only) to AudDBO@dodig.mil.
Copies of the client comments must have the actual signature of the authorizing official for your
organization. We cannot accept the ISignedl symbol in place of the actual signature. If you
alTange to send classified comments electronically, you must send them over the SECRET Internet
Protocol Router Network (SIPRNET).

We appreciate the courtesies extended to the staff. Please direct questions to me at
(703) 601-5868. If you desire, we will provide a formal briefing on the results.



                                             jJ~ a.lf}~
                                             Patricia A. Marsh, CPA
                                             Assistant Inspector General
                                             Defense Business Operations
              Report No. D-2009-063 (Project No. D2007-D000FD-0198.000)
                                         March 24, 2009

              Results in Brief: Funds Appropriated for
              Afghanistan and Iraq Processed Through the
              Foreign Military Sales Trust Fund
                                                             Trust Fund for contingency operations.
What We Did                                                  Because ISFF and ASFF are funding
We determined whether the Defense Security
Cooperation Agency (DSCA) properly                       contingency operations, DSCA should not
transferred appropriated funds from the Army’s           collect administrative fees on these cases.
accounts into the Foreign Military Sales (FMS)
Trust Fund, and whether DSCA was authorized           What We Recommend
to collect administrative fees on these funds.           •   DSCA should directly cite the DoD
                                                             appropriated funds for future purchases
What We Found                                                of support for Iraq and Afghanistan.
   •   The transfer by DSCA of $6.5 billion of
       appropriated funds for the support of             •   DSCA should discontinue charging
       Afghanistan and Iraq military and                     administrative fees on non-FMS cases
       security forces into the FMS Trust Fund               funded by Iraq Security Forces Funds
       did not meet the requirements of the                  and Afghanistan Security Forces Funds.
       Economy Act. It was not in the best
       interest of the Government, was not the        Management Comments and
       most economical use of the funds, and          Our Response
       was not in accordance the requirements         The DSCA Director did not concur with our
       in the DoD Financial Management                recommendations. He stated that Defense
       Regulation (FMR). The FMS Trust                Finance and Accounting Service, DSCA, and
       Fund is a single Treasury account              the Military Departments do not have the
       designed to manage funds received from         system infrastructure to perform the same
       the FMS Program and was not designed           operations through direct cite. He further stated
       to manage expiring funds.                      that DSCA met all requirements of the
                                                      Economy Act, and that DSCA is required to
   •   DSCA improperly collected                      collect all the direct and indirect costs of the
       administrative fees on Iraq and                planned work. We disagree with DSCA
       Afghanistan cases funding contingency          comments. DSCA can control the funds with
       operations. From FYs 2005                      existing accounting systems designed to process
       through 2007, DSCA collected more              appropriated funds without transferring the
       than $155 million in administrative fees       funds to the FMS Trust Fund and the Defense
       to manage non-FMS cases for the Iraq           Integrated Financial System. The DoD FMR
       Security Forces Fund (ISFF) and the            does not authorize DSCA to collect
       Afghanistan Security Forces Fund               administrative fees on funds used for
       (ASFF) processed in the FMS Trust              contingency operations. As a result of further
       Fund. It is DSCA policy, based on the          discussion with DSCA personnel, we revised
       DoD FMR, not to collect administrative         recommendation B. Please see the
       expenses on funds placed in the FMS            recommendation table on the back of the page.



                                                  i
          Report No. D-2009-063 (Project No. D2007-D000FD-0198.000)
                                     March 24, 2009

Recommendations Table
Management                       Recommendations            No Additional Comments
                                 Requiring Comment          Required
Defense Security Cooperation     A. and B.
Agency


Please provide comments by April 24, 2009.




                                             ii
Table of Contents

Results in Brief                                                                  i

Introduction                                                                      1

       Objectives                                                                 1
       Background                                                                 1
       Review of Internal Controls                                                3
       Management Comments on the Background and Our Response                     3


Finding A. Transfer of Appropriated Funds                                         5

       Management Comments on Finding A and Our Response                         11
       Recommendation, Management Comments, and Our Response                     12


Finding B. Collection of Administrative Fees                                     13

       Management Comments on Finding B and Our Response                         14
       Recommendation, Management Comments, and Our Response                     14

Appendices

       A. Scope and Methodology                                                  17
           Management Comments on Scope and Methodology
             and Our Response                                                    19
       B. Prior Coverage                                                         21
       C. DoD Inspector General Memorandum to the Defense Security Cooperation
           Agency, October 18, 2007                                              23
       D. Defense Security Cooperation Agency’s Response to DoD Inspector
           General Memorandum, December 18, 2007                                 27
       E. Management Comments and Our Responses                                  35

Management Comments
     Defense Security Cooperation Agency, October 27, 2008                       57
     Defense Security Cooperation Agency, December 15, 2008                      71
Introduction
Objectives
Our overall audit objective was to determine whether the Defense Security Cooperation
Agency (DSCA) properly managed the funds processed through the Foreign Military
Sales (FMS) Trust Fund that were appropriated for the security, reconstruction, and
assistance of Afghanistan and Iraq. In this report, we will discuss:
     whether the transfers of appropriated funds into the FMS Trust Fund were
        properly authorized, and
     whether the collection of administrative fees on these funds was appropriate.

Background
Security Assistance is a legally authorized group of programs that allows the transfer of
military articles and services to friendly foreign governments. Security Assistance
transfers may be carried out through sales, grants, leases, or loans. The FMS Program is
the part of Security Assistance authorized by the Arms Export Control Act (AECA). The
FMS Program is conducted using formal contracts or agreements between the U.S.
Government and an authorized foreign purchaser. These contracts, called Letters of
Offer and Acceptance (LOAs), are signed by both the U.S. Government and the
purchasing government or international organization, and provide for the sale of Defense
articles and Defense services (to include training), usually from DoD stocks or through
purchases under DoD-managed contracts. The FMS Program is accomplished in two
basic ways:
        (1) FMS cash purchases, whereby the purchaser pays in cash (U.S. dollars) for all
        costs that may be associated with a sale, or
        (2) Foreign Military Financing (FMF), whereby the U.S. Government provides
        grants or non-repayable and repayable loans. The U.S. Government and the
        foreign government negotiate these credit and loan arrangements.

The FMS Trust Fund is the single account authorized to receive payments for products or
services and to incur obligations and expenditures for the FMS program. The budget
authority resulting from FMS orders is recognized in Treasury account 9711X8242. This
is a “no-year appropriation,” meaning that funds are available until expended. DSCA
assigns each country purchasing articles or services through the FMS Program a two-digit
country code that is used to track and control all their funds in the FMS Trust Fund
accounting system. As articles and services are requested, funds are allocated to cases
established in the FMS Trust Fund accounting system based on the requirements
identified in the LOA. The accounting system then tracks the funds until the final
delivery and disbursement of all funds.

The Government Accountability Office (GAO) Principles of Federal Appropriations Law
(Red Book) states that a trust fund is a fund that creates a fiduciary obligation on the
trustee to account for the funds to the depositor (or purchaser). For FMS purchase
requests, “depositor” is the requesting foreign nation. The FMS Trust Fund was


                                            1
established to manage foreign funds used for purchasing goods and services on behalf of
the foreign nation and to separate the funds from U.S. appropriated funds used for the
same purposes.

The Economy Act provides authority for Federal agencies to order goods and services
from other Federal agencies (including other Military Departments and Defense agencies)
and to pay the actual costs of those goods and services. Congress passed the Economy
Act in 1932 to obtain economies of scale and eliminate overlapping activities of the
Federal Government. It allows the head of an agency or unit to place an order with
another agency or unit if:

      funds are available;
      the head of the requesting agency or unit decides the order is in the best interest of
       the U.S. Government;
      the agency or unit to be asked to fill the order is able to provide the goods or
       services; and
      the head of the agency decides that ordered goods or services cannot be provided
       as conveniently or economically by a commercial enterprise.

The DoD Financial Management Regulation (FMR) states that “because of previous
instances of abuse of Economy Act orders, limitations on the use of Economy Act orders
have been imposed.” Agencies may not use Economy Act orders to circumvent
conditions and limitations imposed on the use of funds, including extending the period of
availability of the cited funds.

The Defense Security Cooperation Agency (DSCA) directs, administers, and supervises
the execution of all Security Assistance programs, to include managing the FMS Trust
Fund for DoD. DSCA is the focal point for government-to-government arms transfers,
budgeting, legislation, projections, and forecasting.

Starting in 2003, DSCA transferred U.S. appropriated funds into the FMS Trust Fund to
provide support for Afghanistan and other foreign countries. These appropriated funds
are transfers subject to the AECA and are considered “non- FMS” cases by DSCA.
Therefore, DSCA assigns each of these cases a “pseudo” case identifier, comprised of a
“pseudo” country code and a “pseudo” case designator. DSCA and the Military
Departments process these pseudo cases through the same security assistance systems
and processes as the traditional FMS cases, with the exception that the LOA is not signed
by the country receiving the articles or services. The LOAs for the non-FMS cases state
that the funds associated with the cases are expiring funds and carry the same time,
purpose, and availability restrictions associated with the funding source. Failure to
obligate the funds during the period of availability will render them unavailable for new
obligations.

DSCA assigns an implementing agency the responsibility of implementing a case and
establishing the LOA. The implementing agency is responsible for overall management
of the actions that will result in delivering the material set forth in the LOA.



                                             2
Personnel at the Defense Finance and Accounting Service (DFAS) perform the
accounting, billing, disbursing, and collecting functions for the Security Assistance
programs, which includes the FMS Trust Fund. The Military Department (MILDEP)
accounting systems forward financial data to the Defense Integrated Financial System
(DIFS), which is the departmental-level central accounting system for funds in the FMS
Trust Fund.

Review of Internal Controls
We determined that a material internal control weakness in the Defense Security
Cooperation Agency exists as defined by DoD Instruction 5010.40, “Managers’ Internal
Control (MIC) Program Procedures,” January 4, 2006. It is DSCA policy not to collect
administrative fees on funds placed in the FMS Trust Fund for contingency operations.
However, DSCA collected fees on Afghanistan Security Forces Fund (ASFF) and Iraq
Security Forces Fund (ISFF) cases supporting the Afghan National Army and Iraqi
Armed Forces, both considered contingency operations, according to the DoD FMR.
Implementing Recommendation B will correct this weakness. We will provide a copy of
this report to the senior DSCA official responsible for internal controls.


Management Comments on the Background and Our
Response
Defense Security Cooperation Agency Comments
The Director, Defense Security Cooperation Agency provided comments on the
background section stating that some paragraphs contained inaccuracies. For complete
comments, see the Management Comments section.

Our Response
We do not agree with the DSCA Director’s comments that statements in the report are
inaccurate, and we responded to each of his comments. We responded to the DSCA
comments and met with senior DSCA officials to further discuss the finding and
recommendations in preparing the final report. Based on our discussions with DSCA, we
have updated the report. For our detailed responses, see Appendix E.




                                           3
4
Finding A. Transfer of Appropriated Funds
The transfer by the Defense Security Cooperation Agency (DSCA) of $6.5 billion of
appropriated funds for the support of Afghanistan and Iraq military and security forces
into the Foreign Military Sales (FMS) Trust Fund did not meet the requirements of the
Economy Act and DoD Regulations. The transfer was not in the best interest of the
Government, was not the most economical use of the funds, and was not in accordance
with the DoD Financial Management Regulation (FMR). The transfer of appropriated
funds into the FMS Trust Fund included:

   •   $5.7 billion for support of the Afghanistan armed forces, and
   •   $731 million for support of the Iraq armed forces.

Citing the authority of the Economy Act and public laws, DSCA transferred the
appropriated funds from various DoD accounts established for supporting Afghanistan
and Iraq forces into the FMS Trust Fund. While we recognize DSCA expertise in
providing goods and services to foreign governments, the commingling of appropriated
funds with foreign government funds in the FMS Trust Fund is not in the best interest of
the U.S. Government. The FMS Trust Fund is a single Treasury account (97X8242)
designed to manage funds received from the FMS Program and was not designed to
manage expiring appropriated funds. In addition, the transfer increased the costs of
acquiring goods and services because DSCA collected administrative fees for funds
processed in the FMS Trust Fund. The DoD FMR states that Economy Act orders may
be issued as direct fund cite orders or reimbursable orders. Therefore, we believe that
directly citing appropriated funds would be more advantageous for controlling and
accounting for these funds.

Appropriations Transferred
In December 2002, Congress passed the Afghanistan Freedom Support Act authorizing
funds to assist Afghanistan, and provided additional support in 2003 with the Emergency
Supplemental Appropriations Act for Defense and for the Reconstruction of Iraq and
Afghanistan. These laws allowed DoD to use funds appropriated for its operations and
maintenance activities to train, equip, and provide other assistance to Iraq and
Afghanistan armies. DSCA personnel transferred funds from various DoD
appropriations to the FMS Trust Fund to be used to purchase goods and services for these
military forces.

In 2005, Congress appropriated funds specifically for support of the Afghanistan and Iraq
operations by establishing the Afghanistan Security Forces Fund (ASFF) and the Iraq
Security Forces Fund (ISFF). The Army then transferred some of these funds to DSCA,
which then disbursed them to the FMS Trust Fund to purchase goods and services. The
Army received the Afghanistan appropriated funds through a Treasury appropriation
warrant and then transferred the funds, through a funding authorization document, to
DSCA. The Army received the Iraq appropriated funds and allocated them to the
Multi-National Security Transition Command-Iraq (MNSTC-I). The military personnel



                                            5
in country, the Combined Security Transition Command-Afghanistan or MNSTC-I,
contacted DSCA when they needed Defense articles and services. DSCA or MNSTC-I
then transferred the funds to the FMS Trust Fund. Table 1 shows the five appropriated
funds for Afghanistan and Iraq that were transferred into the FMS Trust Fund.

         Table 1. Breakdown of Transferred Funds into the FMS Trust Fund
                                                    Total Amount Transferred
Presidential Drawdowns                                         $ 487,690,000
Train and Equip Funds                                               447,191,068
Iraq Relief and Reconstruction Fund (IRRF)                           49,850,570
Afghanistan Security Forces Fund (ASFF)                           4,824,042,699
Iraq Security Forces Fund (ISFF)                                    674,266,321
                                    Total                       $6,483,040,658

Presidential Drawdowns
In December 2002, the President signed the Afghanistan Freedom Support Act of 2002
(Public Law 107-327), which provides $300 million in drawdown 1 authority for Defense
articles, Defense services, and training for the Afghanistan government.

Prior to Public Law 107-327, drawdowns were only for articles and services already in
DoD stocks and no new procurements were authorized. The Afghanistan Freedom
Support Act of 2002, section 202(a)(2), authorized the drawdown of funds by stating that
the Defense articles, Defense services, other support, and military education and training
support may be acquired by contract or otherwise. Based on this law, DSCA transferred
funds from the Military Department (Army, Air Force, and Navy) operating funds to
assist Afghanistan. Since 2002, Congress has twice increased the value of drawdown
authority to its current level of $550 million. 2

As of September 30, 2007, DSCA transferred $488 million of this $550 million into the
FMS Trust Fund, funding 20 Afghanistan non-FMS cases, and $7 million to Jordan to
assist in its operations for Afghanistan. The remaining drawdown funds were transferred
to the U.S. Agency for International Development and the Department of State Bureau of
International Narcotics and Law Enforcement.




1
  A drawdown is a direct transfer of on-hand DoD stock Defense articles, services, and military education
and training to foreign countries and international organizations. The Foreign Assistance Act authorizes
the President to drawdown.
2
  Public Law 108-106, “Emergency Supplemental Appropriations Act for Defense and for the
Reconstruction of Iraq and Afghanistan, 2004 Section 2206. section 202(b) amended Public Law 107-327,
“Afghanistan Freedom Support Act of, 2002” increasing the value to $450,000,000. Public Law 108-287,
“Department of Defense Appropriations Act, 2005” Section 9008, section 202(b) amended Public
Law 108-106, “Emergency Supplemental Appropriations Act for Defense and for the Reconstruction of
Iraq” by striking “$450,000,000” and inserting “550,000,000.”


                                                    6
Train and Equip Funds (Public Laws 108-106 and 108-287)
In November 2003, Congress authorized a transfer of $150 million from the DoD
operation and maintenance appropriation for the Afghanistan National Army and New
Iraqi Army in Public Law 108-106, “Emergency Supplemental Appropriations Act for
Defense and for the Reconstruction of Iraq and Afghanistan, 2004,” title I, chapter 1,
Section 1107. The law states:

                 Notwithstanding any other provision of law, from funds made available
                 in this Act to the Department of Defense under “Operation and
                 Maintenance, Defense-Wide” not to exceed $150,000,000 may be used
                 by the Secretary of Defense, with concurrence from the Secretary of
                 State, to provide assistance only to the New Iraqi Army and the Afghan
                 National Army to enhance their capability to combat terrorism and to
                 support U.S. military operations in Iraq and Afghanistan.

DSCA transferred the full $150 million to the FMS Trust Fund to fund two Afghanistan
non-FMS pseudo cases.

In August 2004, Congress authorized a transfer of $500 million from the DoD operation
and maintenance appropriation to provide additional assistance to the New Iraqi Army
and the Afghan National Army in Public Law 108-287, “Department of Defense
Appropriation Act, 2005,” title IX, Section 9006. The law states:

                 Notwithstanding any other provision of law, from funds made available
                 in this title to the Department of Defense for operation and
                 maintenance, not to exceed $500,000,000 may be used by the Secretary
                 of Defense, with the concurrence of the Secretary of State, to train and
                 equip and provide related assistance only to the New Iraqi Army and
                 the Afghan National Army to enhance their capability to combat
                 terrorism and to support U.S. military operations in Iraq and
                 Afghanistan.

Of the $500 million authorized in Public Law 108-287, DSCA transferred $293 million
into the FMS Trust Fund to fund 16 Afghanistan non-FMS cases and 3 Iraq non-FMS
cases. The $293 million came from existing appropriations in DoD.

Iraq Relief and Reconstruction Funds (Public Law 108-106)
Congress appropriated funds for the Iraq Relief and Reconstruction Fund (IRRF) in
Public Law 108-106, title II, chapter 2. Since FY 2004, Congress appropriated
$18.2 billion 3 for needs in Iraq. DSCA transferred $49 million to fund five non-FMS
cases.


3
  Public Law 108-106, “Emergency Supplemental Appropriations Act for Defense and for the
Reconstruction of Iraq and Afghanistan, 2004,” appropriated $18.6 billion for relief, rehabilitation, and
reconstruction in Iraq. It further allocated the amount to several sectors. Public Law 108-309, “Joint
Resolution,” section 133, amended the sector amounts, but the total amount remained unchanged. Public
Law 109-234, “Emergency Supplemental Appropriations Act for Defense, the Global War on Terror, and
Hurricane Recovery, 2006,” Section 1302(b) decreased the IRRF amount to $18.2 billion.


                                                    7
Afghanistan Security Forces Fund
On May 11, 2005, Congress established the Afghanistan Security Forces Fund (ASFF)
with an appropriation of $1.3 billion. This fund was authorized in Public Law 109-13,
“Emergency Supplemental Appropriations Act for Defense, the Global War on Terror,
and Tsunami Relief, 2005.” This fund was intended to include “the provision of
equipment, supplies, services, training, facility, and infrastructure repair, renovation, and
construction, and funding.” Treasury assigned appropriation symbol 21 2091 to the
ASFF, Army. From FYs 2005 through 2007, Congress appropriated $10.6 billion to the
ASFF, and DSCA transferred $4.8 billion of the appropriation into the FMS Trust Fund
for 210 Afghanistan non-FMS cases. Table 2 shows the appropriated ASFF amounts and
the transferred amounts into the FMS Trust Fund by authorizing public law. The
Combined Security Transition Command-Afghanistan identified the requirements
in-country and initiated the Letters of Request to DSCA to begin the purchases.

                      Table 2. Amounts Appropriated for ASFF
 Public Laws      Appropriated       Pseudo      Cases Funded               Total Amount
                    Amounts       Country Code                               Transferred
109-13           $ 1,285,000,000       Y8              77                    $ 994,999,235
109-234            1,908,133,000       B2              73                     1,481,632,998
109-289            1,500,000,000       B6              60                     2,347,410,466
110-28             5,906,400,000
 Total ASFF      $10,599,533,000                      210                    $4,824,042,699

Iraq Security Forces Fund
On May 11, 2005, Congress established the Iraq Security Forces Fund (ISFF) with an
appropriation of $5.7 billion. This fund was authorized in Public Law 109-13,
“Emergency Supplemental Appropriations Act for Defense, the Global War on Terror,
and Tsunami Relief, 2005.” This fund was intended “to provide assistance, with the
concurrence of the Secretary of State, to the security forces of Iraq including the
provision of equipment, supplies, services, training, facility, and infrastructure repair,
renovation, and construction, and funding.” Treasury assigned the appropriation symbol
21 2092 to the ISFF, Army. From FYs 2005 through 2007, Congress appropriated
$14.2 billion to the ISFF, and DSCA transferred $674 million of ISFF funds into the
FMS Trust Fund to fund 46 Iraq non-FMS cases. Table 3 shows the ISFF amounts and
transferred amounts into the FMS Trust Fund. The Army received the funds appropriated
for Iraq and provided them to the Multi-National Security Transition Command-Iraq
(MNSTC-I). MNSTC-I identified requirements for Defense articles and services and
prepared Letters of Request to begin the purchases through the FMS Trust Fund.
MNSTC-I then transferred funds, using the Military Interdepartmental Purchase
Requests, to DSCA for deposit into the Trust Fund.




                                              8
                       Table 3. Amounts Appropriated for ISFF
    Public Law     Appropriated    Pseudo Country     Cases                   Total Amount
                     Amount             Code         Funded                    Transferred
109-13             $5,700,000,000        Y9            23                        $432,357,494
109-234            $3,007,000,000        B3            10                           85,746,495
109-289            $1,700,000,000        B7            13                         156,162,332
110-28             $3,842,300,000
 Total ISFF       $14,249,300,000                      46                         $674,266,321

Justification for Transfer
DSCA stated that these funds were transferred to the FMS Trust Fund “by direction of
the Department of Defense pursuant to applicable legal authorities.” We gave DSCA an
October 15, 2007, memorandum that questioned the legal authority to transfer funds
appropriated for Iraq and Afghanistan into the FMS Trust Fund and to collect
administrative fees on these funds. 4 DSCA General Counsel responded in a
December 18, 2007, 5 memorandum, that the authority to transfer these funds to the FMS
Trust Fund are in the public laws appropriating the funds and in the Economy Act
(section 1535, title 31, United States Code). The memo did not specifically identify the
funds in question to the laws that authorize their transfer, and we could not find any
mention of transferring funds to the FMS Trust Fund in the laws DSCA had identified.
However, we agree that the Economy Act does allow the transfer of funds from one
Government organization to another to cover the direct cost of purchasing goods or
services.

DSCA moved appropriated funds into the FMS Trust Fund, which were then commingled
with other funds in the FMS Trust Fund under one appropriation symbol (97X8242). The
funds were accounted for by assigning them to a sub-account (called a pseudo country
code). The funds were then placed on a contract, which cited the FMS Trust Fund
appropriation or provided for requisitions to reimburse the appropriations of other DoD
organizations.

In its December 18, 2007, memorandum, DSCA General Counsel cited a July 26, 2005,
memorandum from the Deputy Secretary of Defense that assigned the Secretary of the
Army the responsibility to provide ASFF distribution and accounting support to the
Combined Forces Command-Afghanistan 6 through DSCA pursuant to authority
provided in Public Law 109-13, “Emergency Supplemental Appropriation Act for
Defense, the Global War on Terror and Tsunami Relief, 2005.” DSCA management
stated that this memorandum assigns the respective responsibility for managing the ASFF
funds. However, the memorandum did not provide clear direction for DSCA to use the
FMS Trust Fund to account for these funds. DSCA manages other appropriations


4
  See Appendix C.
5
  See Appendix D.
6
  The Combined Forces Command-Afghanistan (CFC-A) has become the Combined Security Transition
Command-Afghanistan (CSTC-A).


                                               9
without using the FMS Trust Fund, for example, the International Military Education and
Training program; therefore, DSCA can also manage the non-FMS funds without using
the FMS Trust Fund. However, the Deputy Secretary of Defense memorandum does
state that the Secretary of the Army “is responsible for proper financial management,
fiscal controls, and accountability in accordance with statute and DoD policies to include
the DoD Financial Management Regulation.”

Best Interest of the Government
While we recognize DSCA expertise in providing goods and services to foreign
governments, we do not believe that commingling U.S. appropriated funds with foreign
government funds in the FMS Trust Fund is in the best interest of the U.S. Government.
The FMS Trust Fund was established to account for cash collections, budget authority,
and cash disbursements resulting from the FMS Program.

Most of the funds that Congress appropriated for the support of the Afghanistan and Iraq
forces and apportioned to the Army were eventually processed by Army organizations.
After DSCA received the funds from the Army appropriations, it transferred them to the
FMS Trust Fund based on requests for assistance from the various U.S. commanders in
Afghanistan and Iraq. DSCA then assigned the orders to the implementing agencies
(Army, Navy, and Air Force organizations) to initiate contracts or requisitions for
purchasing equipment, supplies, and training for Afghanistan and Iraq military and
security forces, citing the FMS Trust Fund appropriation. While the implementing
agency’s logistics and accounting systems then processed these purchases, DIFS did the
departmental-level accounting. The Army was the implementing agency on most of the
LOAs citing these funds ($5.5 billion [95 percent] of Afghanistan funds and $529 million
[71 percent] of Iraq funds).

In addition, the Army’s financial records regarding the Afghanistan and Iraq funds were
misleading. After DSCA transferred the appropriated funds from the Army’s account
into the FMS Trust Fund, the Army recorded the money as disbursed, even though the
funds may remain in the FMS Trust Fund for many months before actually being
expended. However, the funds had not left the Treasury; DSCA simply moved the funds
from one appropriation to another. For example, the September 30, 2007, SF-133 Report
on Budget Execution for the Afghanistan Security Forces Fund, Army Appropriation
number 21 6/7 2091, states that all but $2 of these funds remaining in the appropriation
were disbursed in FY 2007. However, more than $719 million of these funds were still in
the FMS Trust Fund as of September 30, 2007. While the Army reported these funds as
disbursed, DSCA management stated that the actual obligations and expenditures for the
Afghanistan and Iraq cases were made from the FMS Trust Fund appropriation. We
found that, of the $4.8 billion that Army had transferred from the ASFF for support of the
Afghanistan armed forces from FYs 2005 through 2007, almost $3 billion was still in the
FMS Trust Fund.




                                            10
Economical Use of Funds
The transfer of non-FMS Program funds to the FMS Trust Fund initiated an increase in
the cost of purchasing the goods and services because DSCA collected $196 million in
administrative fees for processing in the FMS Trust Fund. DSCA currently collects
3.8 percent of charges for indirect costs on all FMS cases, and it used this same 3.8
percent as their “best estimate” for collecting the indirect costs to process non-FMS
cases. Because DFAS charges DSCA for processing transactions in the DIFS accounting
system, the cost of processing ASFF and ISFF transactions would be reduced if these
funds were not transferred to the FMS Trust Fund. However, there is no way to
determine the amount of saving because DFAS is paid through billing hours, and it does
not track DIFS charges by country code.

DoD Regulation
The DoD Financial Management Regulation (FMR) states that on Economy Act orders
the requesting organization may issue a direct fund cite to the provider or reimburse
funds to the appropriation that was used to pay for the work. According to the GAO Red
Book, the Economy Act authorizes the inter- and intra-departmental furnishing of
material or performance of work or services as reimbursable. This reimbursement is to
include all actual costs of the goods or services provided. The Economy Act authorizes
two methods of payment to the organization providing the goods or services. The
requesting organization can either advance the funds to the organization or reimburse the
organization after the work has been completed. However, the DoD FMR 7000.14-R,
volume 11A, chapter 3, states that Economy Act orders may be issued as direct fund cite
orders or reimbursable orders. Because DSCA is advancing the Army funds to the FMS
Trust Fund, the DoD FMR states that a direct citation of funds be used.

Management Comments on Finding A and Our
Response
Defense Security Cooperation Agency Comments
The Director, Defense Security Cooperation Agency disagreed with the finding. The
Director stated that referring to the funds in the FMS Trust Fund as “commingling” is
incorrect because the FMS Trust Fund is a single account at the U.S. Treasury level only.
Monies within the Trust Fund are segregated into more than 330 separate accounts as
shown on the FMS General Ledger. The Director also stated that some paragraphs of the
finding contained inaccuracies. For complete comments, see the Management Comments
section.

Our Response
We disagree with the DSCA Director’s comment that the report is incorrect. Referring to
the “commingling” of funds is correct because all funds transferred to the FMS Trust
Fund are in a single account at Treasury and have the same designation. The report
acknowledges that DSCA has established controls within the accounting system.
However, other appropriations at the Treasury level carry a designation as to their


                                           11
purpose (for example, Operations and Maintenance and Research, Development, Test,
and Evaluation appropriations) and a fiscal year limitation that are not applicable to funds
placed in the FMS Trust Fund. We are aware of no authority in any of the appropriations
acts listed in this report or elsewhere that permits the commingling of U.S. appropriated
funds with the funds of foreign nations in the FMS Trust Fund. We do not agree with the
Director’s comments that statements in the finding are inaccurate. We responded to the
DSCA comments and met with senior DSCA officials to further discuss the finding and
recommendations in preparing the final report. Based on our discussions with DSCA, we
have updated the report to provide additional information on the DoD FMR requirements.
For the detailed responses, see Appendix E.

Recommendation, Management Comments, and Our
Response
A. We recommend that the Director, Defense Security Cooperation Agency
discontinue transferring funds appropriated for the Afghanistan Security Forces
Fund and Iraq Security Forces Fund to the Foreign Military Sales Trust Fund, and
instead direct cite these appropriations on all future cases using these funds.

Defense Security Cooperation Agency Comments
The Director, Defense Security Cooperation Agency disagreed with our recommendation
stating that the FMS case and financial management systems, logistical delivery systems,
and case closer mechanisms connect Defense Security Cooperation Agency, DFAS,
Implementing Agencies (the Military Departments), and FMS customers. Defense
Security Cooperation Agency, DFAS and the Military Departments do not have the
system infrastructure to perform the same operations through direct cite.

Our Response
The Defense Security Cooperation Agency Director’s comment is nonresponsive. The
Director did not provide any support for the statement that DSCA does not have the
system infrastructure to perform the same operations through direct cite. All the
accounting systems the Defense Security Cooperation Agency personnel identified to us
that support the processing of the programs reviewed in this report, except the Defense
Integrated Financial System, are standard systems used by the Military Departments to
process DoD appropriations. The Director did not provide any documentation to show
why the Defense Security Cooperation Agency cannot use these systems to control the
processing of Afghanistan and Iraq Security Forces Funds without transferring the funds
to the Foreign Military Sales Trust Fund accounting system. We request that Defense
Security Cooperation Agency reconsider its position on the recommendation and provide
comments on the final report.




                                            12
Finding B. Collection of Administrative Fees
The Defense Security Cooperation Agency (DSCA) improperly collected administrative
fees on Afghanistan and Iraq non-FMS cases funded with the Afghanistan Security
Forces Fund (ASFF) and the Iraq Security Forces Fund (ISFF) and processed through the
FMS Trust Fund. It is DSCA policy not to collect administrative fees on funds placed in
the FMS Trust Fund for contingency operations based on DoD FMR, volume 12,
chapter 23. However, DSCA did collect fees from funds appropriated for ASFF and
ISFF, which are funding contingency operations as defined in the DoD FMR. Therefore,
DSCA should not collect the administrative fees for processing ASFF and ISFF funds.
As a result, from FYs 2005 through 2007, DSCA improperly collected over $155 million
in administrative fees from appropriated funds.

Administrative Fee Authority
The GAO Red Book states that the Economy Act authorizes the inter- and
intra-departmental furnishing of material or performance of work or services on a
reimbursable basis. It also states that this is to include all actual costs of the goods or
services provided. While these actual costs can include both direct and indirect costs,
DoD FMR, volume 11A, chapter 3, paragraph 030601, states that DoD activities not
funded by working capital funds normally do not charge indirect costs to other DoD
activities. However, DSCA currently collects 3.8 percent of charges for indirect costs on
non-FMS cases, based on their estimate of the indirect costs to process FMS cases.

Contingency Operations
DSCA improperly collected administrative fees on Afghanistan and Iraq non-FMS cases
funded with the Afghanistan Security Forces Fund (ASFF) and the Iraq Security Forces
Fund (ISFF) and processed through the FMS Trust Fund. It is DSCA policy not to
collect administrative fees on funds placed in the FMS Trust Fund for contingency
operations based on DoD FMR, volume 12, chapter 23, paragraph 230107, “Allowable
Contingency Operations Cost,” September 2007. This paragraph states:
               The funding derived from a contingency transfer account is available
               only for those incremental costs incurred in direct support of a
               contingency operation. As such, funds that are transferred into a
               Component’s baseline appropriation are not to be used to finance
               activities and programs that are not directly related to the incremental
               cost of the contingency.

For example, DSCA executes Presidential Drawdowns (Public Law 107-327, as
amended) as contingency operations. Therefore, the administrative fee of 3.8 percent is
not collected on these cases, but is funded through the FMF Administrative Costs
account. However, DSCA collected administrative fees on Afghanistan and Iraq
non-FMS cases funded with ASFF and ISFF and processed through the FMS Trust Fund,
even though they are considered as funding contingency operations. From FYs 2005
through 2007, DSCA collected over $24 million from cases funded by ISFF, and over


                                                 13
$131 million from cases funded by ASFF. DoD FMR, volume 12, chapter 23, paragraph
230406, table 23-1, states that contingency operations include “the costs to finance the
training and equipping and other related assistance to Iraqi Armed forces and Afghan
National Army….” Because the DoD FMR defines the operations that are being funded
by ASFF and ISFF as contingency operations, DSCA should not collect administrative
fees for processing ASFF and ISFF funds.

Management Comments on Finding B and Our
Response
Defense Security Cooperation Agency Comments
The Director, Defense Security Cooperation Agency disagreed with the finding. He
stated that the draft report confuses two sets of funding streams: (1) the appropriations for
Foreign Military Financing administrative activities, and (2) the collection of the Foreign
Military Sales administrative surcharges required by law to be used for administration of
FMS sales. He also stated that all requirements of the Economy Act were met, and that
the agency filling the orders is required to collect all the direct and indirect cost of the
work to be done. He added that the administrative surcharge percentage of 3.8% was the
best estimate of the indirect costs of the work performed. The Director also stated that
some paragraphs of the finding contained inaccuracies. For complete comments, see the
Management Comments section.

Our Response
Based on discussions with DSCA officials, we revised the report to remove the
discussion of the Foreign Military Financing administrative activities. However, we do
not agree that DSCA met the requirements of the Economy Act and that DSCA is
required to collect administrative fees on funds used for contingency operations. We also
do not agree with the Director’s comments that statements in the finding are inaccurate.
We responded to the DSCA comments and met with senior DSCA officials to further
discuss the finding and recommendations in preparing the final report. For the detailed
responses, see Appendix E.

Recommendation, Management Comments, and Our
Response
Revised Recommendation
Because of the Director’s comments and further discussions with DSCA personnel, we
revised the recommendation in the final report to remove references to the Foreign
Military Financing appropriation.

B. We recommend that the Director, Defense Security Cooperation Agency
discontinue collecting administrative fees on non-Foreign Military Sales programs
funded by Iraq Security Forces Funds and Afghanistan Security Forces Funds.




                                             14
Defense Security Cooperation Agency Comments
The Director, Defense Security Cooperation Agency disagreed, stating that the
recommendation requires legislative changes. The Director further stated that Congress
would have to expressly authorize and appropriate Foreign Operations Appropriations
and direct that such funds be used for the support of DoD programs. He also stated that
the limited FMF appropriation could not support the level of funding that would be
required to sustain the non-FMS programs in Iraq and Afghanistan.

Our Response
The Director’s comment is partially responsive. Based on discussions with DSCA
officials, we revised the recommendation to remove discussions of the Foreign Military
Financing Administrative Cost account. However, we continue to recommend that
DSCA not charge the administrative fee on ASFF and ISFF funded non-FMS cases due
to the restrictions in the DoD FMR. We request that Defense Security Cooperation
Agency reconsider its position on the recommendation and provide comments on the
final report.




                                           15
16
Appendix A. Scope and Methodology
We conducted this performance audit from June 17, 2007, through July 8, 2008, in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

We identified and examined eight public laws from FYs 2003 through 2007 that
appropriated funds for Afghanistan and Iraq. Table 1 shows the public laws and amounts
appropriated for Afghanistan and Iraq.

    Table 1. Iraq and Afghanistan Appropriations from FYs 2002 through 2007
                                  Public Laws

 Public Law                      Title                                   Amounts
107-327         Afghanistan Freedom Support Act of        $300,000,000 for Afghanistan. The
                2002, section 202                         public law was amended by PL 108-106
                                                          and PL 108-287 to a final amount of
                                                          $550,000,000.
108-106         Emergency Supplemental
                Appropriations Act for Defense and for
                the Reconstruction of Iraq and
                Afghanistan, 2004

                -Title I, Chapter 1, Section 1107         $150,000,000 for Iraq and Afghanistan

                -Title II, Chapter 2, Iraq Relief and     $18,649,000,000 for Iraq. The public
                Reconstructed Fund (IRRF)                 law allocated the funds to several
                                                          sectors. This public law was amended
                                                          by PL 108-309 and PL 109-234

                -Title II, Chapter 2, Section 2206,       Increased PL 107-327 to $450,000,000
                Section 202(b)
108-309          FY 2005 Continuing Resolution,           Amended the sector amounts of
                section 133                               PL 108-106, Title II
108-287         Department of Defense Appropriations
                Act, 2005

                -Title IX, Section 9006.                  $500,000,000 for Iraqi and Afghanistan
                                                          Army

                -Title IX, Section 9008, Section 202(b)   Increased PL 107-327 to $550 ,000,000




                                             17
109-13         Emergency Supplemental                    $1,285,000,000 for the Afghanistan
               Appropriations Act for Defense, the       Security Forces Fund (ASFF)
               Global War on Terror, and Tsunami         $5,700,000,000 for the Iraq Security
               Relief, 2005, Title I                     Forces Fund (ISFF)
109-234        Emergency Supplemental
               Appropriations Act for Defense, the
               Global War on Terror, and Hurricane
               Recovery, 2006

               -Title I, Chapter 2, ASFF and ISFF        $1,908,133,000 for ASFF
                                                         $3,007,000,000 for ISFF

               -Title I, Chapter 3, Section 1302(b)      Amended PL 108-106, Title II
109-289        Department of Defense Appropriations      $1,500,000 for ASFF
               Act, 2007, Title IX                       $1,700,000 for ISFF
110-28         U.S. Troop Readiness, Veterans’ Care,     $5,906,400,000 for ASFF
               Katrina Recovery, and Iraq                $3,842,300,000 for ISFF
               Accountability Appropriations Act,
               2007, Title I, Chapter 3 (supplement to
               PL 109-289)

After compiling a list of Iraq and Afghanistan appropriated funds from FYs 2003 through
2007, we searched the Security Assistance Management Manual to identify the pseudo
country codes associated with each public law. Table 2 shows the list of pseudo country
codes.

 Table 2. Pseudo Country Codes Related to Iraq and Afghanistan Appropriations

                    Public Law            Pseudo Country Code
                107-327               S9 (Afghanistan)
                108-106               Y2 (Afghanistan)
                                      Y7 (Iraq)
                108-287               Y5 (Afghanistan)
                                      Y6 (Iraq)
                109-13                Y8 (Afghanistan)
                                      Y9 (Iraq)
                109-234               B2 (Afghanistan)
                                      B3 (Iraq)
                109-289 & 110-28      B6 (Afghanistan)
                                      B7 (Iraq)

We reviewed the amounts granted to Afghanistan through the FMF program.
Specifically, we examined the Apportionment and Reapportionment Schedule that
apportioned funds to Afghanistan. Since FY 2002, a total of $1,059,132,700 have been
apportioned to Afghanistan. The FMF program did not provide funds for Iraq.



                                          18
Defense Finance and Accounting Services personnel extracted information for each of
the pseudo country codes from the Defense Integrated Financial System (DIFS), the
computer system that maintains FMS financial data. The DIFS data gave us the ordered
amounts in each Letter of Request.

We analyzed the data for related administrative fee charges. We received data from
DIFS listing the administrative fees collected for the Afghanistan and Iraq non-FMS
cases funded with appropriated funds, and for the Afghanistan FMF cases.

With the assistance of DoD Inspector General (DoD IG) General Counsel, we provided
DSCA with a memorandum on October 15, 2007, which questioned the legal authority to
transfer funds appropriated for Iraq and Afghanistan into the FMS Trust Fund, and to
collect administrative fees on these funds. 1 The DSCA Office of General Counsel
provided a response to the memorandum on December 18, 2007. 2

Use of Computer-Processed Data
We used information from DIFS in performing our audit. To assess the reliability of data
in the DIFS system, we compared the data reported in DIFS to hardcopy documentation.
Based on this comparison, we determined that the data was sufficiently reliable for our
purposes.

Use of Technical Assistance
Personnel at the DoD IG Office of General Counsel assisted with our review of the
legality of the fund transfers into the FMS Trust Fund, as well as with our review of the
legality of the administrative fee collection on non-FMS cases.

Management Comments on the Scope and Methodology
and Our Response
Defense Security Cooperation Agency Comments
The Director, Defense Security Cooperation Agency provided comments on the scope
and methodology section, stating that some paragraphs contained inaccuracies. For
complete comments, see the Management Comments section.

Our Response
We do not agree with the DSCA Director’s comments that statements in the report are
inaccurate, and we responded to each of the Director’s comments. For the detailed
responses, see Appendix E.




1
    See Appendix C.
2
    See Appendix D.


                                            19
20
Appendix B. Prior Coverage
During the last 5 years, the Government Accountability Office (GAO), the Department of
Defense Inspector General (DoD IG), and the Army Audit Agency (AAA) have issued
11 reports discussing appropriated funds provided to Afghanistan and Iraq and the FMS
Trust Fund.

GAO
GAO Report No. GAO-07-711, “DoD Cannot Ensure that U.S.-Funded Equipment has
Reached Iraqi Security Forces,” July 2007

GAO Report No. GAO-07-525T, “Conditions in Iraq are Conducive to Fraud, Waste, and
Abuse,” April 23, 2007

DoD IG
DoD IG Report No. D-2008-026, “Management of the Iraq Security Forces Fund in
Southwest Asia – Phase III,” November 30, 2007

DoD IG Report No. D-2008-012, “Distribution of Funds and the Validity of Obligations
for the Management of the Afghanistan Security Forces Fund – Phase I,” November 5,
2007

DoD IG Report No. D-2007-060, “Management of the Iraq Security Forces Fund in
Southwest Asia – Phase II,” February 12, 2007

DoD IG Report No. D-2007-030, “Management of the Iraq Security Forces Fund in
Southwest Asia – Phase I,” December 8, 2006

DoD IG Report No. D-2006-011, “Report on the Foreign Military Sales Trust Fund Cash
Management,” November 7, 2005

DoD IG Report No. F-2005-0011-FB-1000, “Global War on Terrorism Funds
Management,” June 20, 2005

Army Audit Agency
AAA Report No. A-2006-0046-ALA, “Fund Accountability for Fiscal Year 2004 Iraq
Relief and Reconstruction Funds (IRRF), January 31, 2006

AAA Report No. A-2005-0194-ALA, “The Program Management in Support of Iraq
Reconstruction,” May 26, 2005

AAA Report No. A-2005-0173-ALE, “The Commander’s Emergency Response Program
and Quick Response Fund, Multi-National Transition Command Iraq (MNSTC-I),
May 2, 2005



                                         21
22
Appendix C. DoD Inspector General
Memorandum to the Defense Security
Cooperation Agency, October 18, 2007




                    23
24
25
26
Appendix D. Defense Security Cooperation
Agency’s Response to DoD Inspector
General Memorandum, December 18, 2007




                    27
28
29
30
31
32
33
34
Appendix E. Management Comments and
Our Responses
Defense Security Cooperation Agency Management
Comments to the Introduction, Findings A and B, and
Scope and Methodology,
On December 4, 2008, we provided the Director with our responses to his
October 27, 2008, comments and asked if he would like to revise or withdraw his
comments. On December 15, he provided additional comments. We respond to his
comments here. All DSCA Comment paragraphs are direct quotes from the
October 27, 2008, comments. For the complete October 27, 2008, comments, see the
Management Comments section.

Introduction
DSCA Comment
1. The first paragraph under “Background” (page 1). The statement is made that the FMS
Program is accomplished in two basic ways --- through either cash purchases or Foreign
Military Financing (FMF). This is not correct. These are actually two types of funding
rather than two methods of executing FMS. The method of execution is basically the
same whether the case is financed with cash or with FMF. As set out in law and
regulation, the two ways of executing FMS cases are (a) sales from stock, and (b)
procurement by contract. At a minimum, we recommend the wording be changed to state
“The FMS program is generally funded in two basic ways . . .”

In the DSCA December 15, 2008, comments, the Director upheld his original comments,
stating that audit response disagrees with their statements and cites the FMS customer
Financial Management Handbook. He further stated the document cited is a training
guide, and it is not a policy document and should not be used as such.

Our Response
1. We disagree with the DSCA Director’s comment that the statement is incorrect. We
obtained the statement from the FMS Customer Financial Management Handbook,
chapter 1, “An introduction to the Foreign Military Sales Programs,” May 2004,
page 1-1. The Financial Management Handbook is an official publication of the Defense
Institute for Security Assistance and the Defense Finance and Accounting Service. Its
purpose is to acquaint the reader with the terminology, legislation, and policies associated
with the management of the FMS program. The Background section of the audit report
serves that purpose for the Findings.




                                            35
DSCA Comment
2. The second paragraph under “Background” (page 1).
        a. The statements about the FMS Trust Fund are not correct in that they are
incomplete. As explained previously, the FMS Trust is only a single account at the U.S.
Treasury level. At the DoD level, it consists of over 330 separate accounts as shown on
the FMS General Ledger made available by both DSCA and DFAS. For clarification, we
recommend the first sentence of this paragraph be changed to read, “The FMS Trust Fund
is a single account only at the U.S. Treasury level. At the DoD level, it consists of over
330 separate subaccounts that provide for the segregation and separate management of
funds deposited by 206 foreign countries and international organizations and U.S.
appropriations transferred to the Trust Fund.”

Our Response
        a. We disagree with the DSCA Director’s comment that the statements are
incorrect. The FMS Trust Fund appropriation (9711X8242) is the only appropriation
used for funds in the FMS Trust Fund at the Treasury level. The subaccounts discussed
in the comments are in the DIFS departmental-level accounting system. We do not feel
that adding the statement about subaccounts would add any benefit to the report. In the
same paragraph, we explain that DSCA assigns 2-digit country code, which DSCA uses
to track and control all the funds, and making this additional statement would be
redundant.

DSCA Comment
         b. This paragraph inaccurately states that “As articles and services are requested,
funds are allocated to cases established in the FMS Trust Fund . . .” Cases are not
established in the FMS Trust Fund awaiting requests for articles and services as implied
in this paragraph. What is correct: A customer’s request for articles and services
prompts the creation of a Letter of Offer and Acceptance (LOA) that, when signed and
implemented, creates a case. An accurate description of the process would be “When an
FMS customer requests defense articles and services, a Letter of Offer and Acceptance
(LOA) is written that, when signed by the customer and the United States, documents the
agreement and the standard and, as appropriate, special terms and conditions under which
authorized defense articles and services will be provided. A signed and implemented
LOA creates obligation authority that supports requisitions against DoD stock or
procurement by contract. An integral part of each LOA is a payment schedule
identifying the expected amounts and timing of customer payments to the USG. A
customer’s payments are deposited into the Trust Fund into sub-accounts that segregate
them from the deposits of other customers and restricts the use to each individual
customer. Appropriated funds are segregated in the same way, by appropriation, by
country or program, and by case. The financial accounting system tracks all funding until
all deliveries are completed and the case is reconciled and closed.”

In the Director’s second set of comments, he stated that cases are not established in the
Trust Fund. The wording in the SAMM that we reference in the audit response deals
with payments regarding “implemented” cases, which is accurate.


                                            36
Our Response
        b. We do not agree with the DSCA Director’s comment that the paragraph
“inaccurately states” the process. The purpose of the Background section was not to
explain in detail the entire process of how an LOA is established, but to provide enough
information for a person to understand the general basics of FMS Trust Fund operations.
Although we summarized statements in the Security Assistance Management Manual
(SAMM), chapter 9, we believe the intent of the statement is clear. SAMM, chapter 9,
section C9.3.5 states:

               The FMS Trust Fund is used for payments received from purchasers and disbursements
               made against implemented FMS cases. This fund is cited directly on contract for the
               procurement of defense articles and/or services for the purchaser, or is used to reimburse
               Military Department appropriations for deliveries from DoD stocks or services performed
               by DoD employees.

However, we revised the report to state that the cases are established in the FMS Trust
Fund accounting system, not in the FMS Trust Fund.

DSCA Comment
3. Third paragraph under “Background” (page 1). Recommend the last sentence in this
paragraph be amended to “. . . and has long provided for subaccounts that are used to
separate foreign deposits from U.S. appropriated funds that the Congress has provided to
fund foreign military and security assistance.”

Our Response
3. We addressed the recommended sentence in our response to the DSCA Director’s first
comment to the Background. We do not feel that adding a statement about subaccounts
would be of any benefit to the report. We have already explained that DSCA assigns
2-digit country code that they use to track and control all the funds in the FMS Trust
Fund, and making this additional statement would be redundant.

DSCA Comment
4. Fifth paragraph under “Background” (page 2). No abuses or improprieties have been
identified with regard to the use of the Economy Act to support the programs examined
by this audit. We recommend deleting the three sentences beginning with the phrase
“Because of previous abuses . . .” The discussion of unspecified previous abuses are not
related to this report, its findings or recommendations, and thus casts an impression that
is not accurate, fair, or balanced.

Our Response
4. We disagree with the DSCA Director’s recommendation. This is a background
statement and does not refer to specific abuses or improprieties. We took this statement
verbatim from the DoD FMR, volume 11A, chapter 3, “Economy Act Orders,” paragraph
030104, Limitations. For clarification, we attributed the statement to the DoD FMR and
added the appropriate quotation marks.



                                                 37
DSCA Comment
5. Seventh paragraph under “Background” (page 2).
        a. For clarity, we recommend the second sentence should be expanded to include
why these cases are considered “non-FMS.” Recommend the second sentence be
reworded as follows: “Because the Department of Defense is the purchaser and the
transaction does not require the recipient foreign government’s agreement or funding,
these DoD funded cases are designated “non-FMS” although these are transfers subject to
the Arms Export Control Act (AECA).”

Our Response
        a. While we feel that the sentence adequately explained the reason why these
cases are considered “non-FMS,” we added wording to the paragraph for clarity.

DSCA Comment
        b. The third sentence incorrectly states that the “pseudo identifier” is comprised of
a “pseudo” country code and a “pseudo case designator.” There is no such thing as a
pseudo case designator. We recommend the word “pseudo” be deleted when referring to
the case designator.

In our December discussion with DSCA management, they agreed that the audit response
correctly quotes wording currently in the SAMM, paragraph C5.4.11.1.1. regarding
“pseudo” identifiers and designators. However, the SAMM wording is not accurate with
regard to “pseudo” designators. The DSCA Director stated he will take action to correct
that statement in the SAMM.

Our Response
       b. We disagree with the DSCA Director’s comment that the statement is incorrect.
The source for this statement is the Security Assistance Management Manual (SAMM),
chapter 5, “Foreign Military Sales Case Development,” paragraph C5.4.11.1.1, Pseudo
Country Case, which states, “A ‘pseudo’ case identifier must be created using a ‘pseudo’
country code and a ‘pseudo’ case designator….” Because we are required to use
supporting documents that are current at the time of our review, we will keep the existing
wording.

DSCA Comment
        c. The fourth sentence in this paragraph is also incorrect. We recommend the
fourth sentence in this paragraph be changed to clarify that these cases are processed
using existing data systems and processes. Corrected wording should read: “DSCA and
the Military Departments process these pseudo cases using the same data and financial
systems and processes as FMS cases. One major exception is that the LOA is not signed
by the country receiving the articles and services because the Purchaser is the United
States, not a foreign government.”




                                             38
Our Response
         c. We disagree with the DSCA Director’s comment that the statement is incorrect.
The sentence already states that the foreign country does not sign the LOA. We took the
statement from the SAMM, chapter 11, paragraph C11.3.3. The SAMM implies that the
same systems are used to processes both FMS cases and non-FMS cases. However, for
clarity, we revised the wording in the sentence to address the use of security assistance
systems.

DSCA Comment
6. Eighth paragraph under “Background” (page 2). This paragraph states that once (i.e.,
after) an LOA is established, DSCA assigns an Implementing Agency the responsibility
of implementation. This is not correct. The Implementing Agency actual provides the
data needed to prepare the LOA and so is “assigned” up-front in the process --- not after
the LOA is established. We recommend this paragraph be reworded as follows: “An
Implementing Agency is responsible for providing data required to write the LOA. Once
the LOA is offered, signed, and implemented, stock requisitions may be processed and
procurement contracts may be awarded. The Implementing Agency is responsible for
overall management of the actions which will result in delivering the defense articles and
services specified in the LOA.”

Our Response
6. We based our statement in the report on a presentation, during the audit, by a DSCA
Country Finance Director, who stated that when DSCA receives a Memorandum of
Request (MOR), it assigns the MOR to the Implementing Agency. For clarification, we
amended the sentence to say that the Implementing Agency establishes the LOA after
DSCA has assigned the work.

DSCA Comment
7. Ninth and final paragraph under “Background” (page 2). This paragraph discusses the
DFAS role in performing accounting, billing, disbursing, and collecting functions. It
does not acknowledge that accounting and related functions are also performed by the
Military Departments using various MILDEP financial and accounting systems. These
additional systems provide data to the MILDEP FMS systems which then provide the
data to DIFS. For clarification, we recommend this paragraph be changed to read as
follows: “. . . for the Security Assistance Programs. DFAS uses the applicable Military
Department (MILDEP) accounting and financial management systems. These systems
provide data to the MILDEP FMS system which then provides data to DIFS. DFAS
Indianapolis uses the DIFS as the departmental-level central accounting system for
billing the FMS customer and reporting the financial status of funds in the FMS Trust
Fund.




                                            39
Our Response
7. We acknowledge in the report the importance of the Military Departments in the
execution of FMS and non-FMS cases. We took the original statement from the SAMM,
paragraph C2.3.9. However, we agree that amending the paragraph to add verbiage
acknowledging the MILDEP financial and accounting systems adds value to the report,
and we amended the paragraph accordingly.




DSCA Comments on Finding A. Transfer of Appropriated
Funds
DSCA Comment
1. Introductory Paragraphs (page 3). This section states that transfer of $6.5 billion of
appropriated funds for support of Afghanistan and Iraq military and security forces in the
FMS Trust Fund did not meet the requirements of the Economy Act and that this transfer
and commingling of funds was not in the best interest of the Government. DSCA non-
concurs with that assessment for the following reasons:

        a. DSCA did collect $6.5 billion of appropriated funds for the support of
Afghanistan and Iraq military and security forces into the FMS Trust Fund. Funding was
transferred from the U.S. Army (on occasion funds were sub-allocated from any Military
Department in the case of directed drawdowns) to DSCA to carry out “pseudo” cases
using the FMS system. The office of the DoD General Counsel, Deputy General Counsel
(Fiscal) has opined that the transactions supporting Iraq met the preconditions for the
Economy Act, title 31 U.S.C. section 1535. By memo dated 26 July 2005, Gordon
England directed that “ASFF distribution and accounting support to the CFC-A” be done
through the Defense Security Cooperation Agency. This mandate has been repeated in
subsequent directions. Because the FMS system is the only process in DSCA that is
available for distribution and accounting support for defense articles and services, it was
the judgment of DoD that the FMS system was an appropriate vehicle for ASFF
transactions. DSCA has been provided no economic analysis in this paper or from other
sources to suggest that a more economical process is available.

In his December 15, 2008, comments, the Director stated that he disagreed with our
response to his initial comments regarding the cost of processing at DFAS and within the
DIFS data system. He stated that DSCA pays DFAS to perform accounting services.
These payments are not made on a case-by-case basis. He stated that it is not accurate to
assume that the annual amount of DIFS processing costs are increased by the addition of
specific numbers of cases being managed through the system.




                                            40
Our Response
1. We disagree with the DSCA Director’s comments.
        a. The Director stated that “the DoD General Counsel, Deputy General Counsel
(Fiscal) has opined that the transactions supporting Iraq met the preconditions for the
Economy Act, title 31, U.S.C. section 1535.” We agree; we are not stating that the
Economy Act is improper for purchasing items for Iraq. We are stating that the Army
should be directly citing the ISFF appropriation, as required by regulation, instead of
transferring funds to the FMS Trust Fund. We agree that the July 26, 2005,
memorandum directed that “ASFF distribution and accounting support to the CFC-A” be
accomplished through the Defense Security Cooperation Agency. However, as we stated
in the report, the memorandum did not specifically authorize the transfer of funds to the
FMS Trust Fund. The DSCA Director stated that it was the judgment of DoD that the
FMS system was an appropriate vehicle for ASFF transactions. In August 2008, we
requested additional support for the DSCA management comments. However, DSCA
was unable to provide any supporting documentation. The documents provided were
memoranda from the Deputy Secretary of Defense to the Army and Military
Commanders approving the reallocation of ASFF funds for execution. There was no
mention of use of the FMS Trust Fund in any of the documents. While we did not
provide any economic analysis concerning the cost of this process, DSCA pays DFAS a
fee for processing transactions in DIFS accounting system. Therefore, by transferring
these appropriated funds into the FMS Trust Fund, the cost of goods and services would
increase because of the additional cost of processing in DIFS. According to DFAS
personnel, an economic analysis is not available concerning the cost of processing ASFF
and ISFF transactions because DFAS is paid through billing hours and does not track
DIFS charges by country code. The cost of processing transactions for non-FMS cases in
DIFS would have to be charged to these non-FMS cases because FMS funds cannot be
used to pay for processing non-FMS cases. In addition, the 3.8% estimated cost for
processing non-FMS cases is based on the 3.8% charge for FMS cases, which includes
the cost of processing transactions in DIFS. There would have to be an impact on the
funds used to pay DFAS for this processing.

DSCA Comment
       b. The FMS Trust Fund is a single Treasury account designed to hold funds
received for FMS programs. While it is true that the Trust Fund was not designed to
manage expiring appropriated funds, DSCA has developed methods to segregate in
separate subaccounts and ensure the appropriate management of these funds with their
unique requirements. As discussed previously, DSCA has developed a series of “pseudo”
country codes to identify specific funding authorization types. Unique clauses are also
included in LOA documents to ensure funding restrictions are clear.

Our Response
        b. We acknowledge in the report that DSCA has established separate accounts in
the department-level accounting system. However, other appropriations at the Treasury
level carry a designation of use (for example, Operations and Maintenance; and Research,
Development, Test, and Evaluation) and a fiscal year limitation, which is not available in


                                           41
the FMS Trust Fund appropriation. Segregation into separate subaccounts in the
accounting system does not change the fact that the FMS Trust Fund is a single, no-year
appropriation, and all funds placed in it carry the same designation. After the
appropriated funds are transferred, they lose their fiscal year identity and are recognized
as no-year funds at the Treasury level.

DSCA Comment
        c. It is incorrect to state that the funds in the Trust Fund are “commingled.” The
funds deposited into the FMS Trust Fund are controlled at several levels. There are
separate subaccounts for various administrative and cost clearing accounts. Country or
“pseudo” case funds are accounted for via separate subaccounts for each country or
“pseudo” –type of funding. “Pseudo” case funding is separated by purpose/country
benefiting from the transaction, and by funding “life.”

Our Response
        c. We disagree with the DSCA Director’s comment. Our statement of
“commingling” is correct. As stated in our response to comment 1.b under Finding A,
because the FMS Trust Fund is a no-year appropriation, all the funds placed in it carry
the same designation. DSCA management was not provided authority in any of the listed
appropriations acts (the DSCA, December 18, 2007, memorandum provided a list) or
elsewhere to permit the commingling of U.S. appropriated funds with the funds of
foreign nations in the FMS Trust Fund. On the contrary, because Congress appropriated
the funds to the Army in separate accounts for Afghanistan and Iraq, it would appear to
be the intent of Congress that the subject funds be managed separately and be accounted
for separately according to the specific reporting requirements in the acts.

DSCA Comment
        d. This section inaccurately states, “In addition, the transfer increased the costs of
acquiring goods and services because DSCA collected administrative fees for funds
processed in the FMS Trust Fund.” There are two fundamental inaccuracies with this
statement.
                (1) First, the FMS processes and workforce are paid for by FMS
customers through the assessment of the Administrative Surcharge, which is mandated
by law. This FMS-funded workforce cannot acquire defense articles and services for
non-FMS programs without charging and recovering the costs of that work from the DoD
or USG entity ordering the non-FMS work. To do the work without charge would
improperly augment the appropriations of that entity and create a potential Antideficiency
Act violation. Further, administrative surcharge collections from international customers
are not legally available to pay for such work.

Our Response
        d. We disagree with the DSCA Director’s comment that the section is inaccurate.
               (1) This report does not state that administrative surcharges collected from
international customers be used to pay for other than their own expenses. We agree that
under the FMS programs the services should be at no cost to the Government as the FMS



                                             42
program was established specifically for foreign countries. However, as previously
stated, we believe that the cost to the non-FMS cases would be reduced if the funds were
not processed through the FMS Trust Fund because this would eliminate DIFS processing
charges.

DSCA Comment
                (2) Second, there is no analysis provided to show that the costs of
acquiring these goods and services through some other means or through some other
agency or component would be less expensive than using the FMS system and using the
administrative surcharge percentage as the best estimate of the costs of the work. Any
other means or method of support would require some recovery of the actual or estimated
costs of the work – so it is very misleading to let the reader conclude that the cost of
using other alternatives would be $0.

Our Response
                (2) We are not suggesting that the work would be performed at no cost by
other agencies. (See Audit Response to DSCA comment 5 under Finding A and Audit
Response to DSCA comment to 1.a under Finding B.) We are stating that contracts and
other purchase orders should cite the ASFF and ISFF appropriation symbol instead of
transferring the funds into DIFS and citing the FMS Trust Fund appropriation symbol.
Because DFAS charges DSCA for processing transactions in DIFS, the cost of processing
these non-FMS cases increases. There is no economic analysis on the cost of processing
ASFF and ISFF transactions because DFAS is paid through billing hours and does not
track DIFS charges by country code. As we previously explained, the cost of processing
transactions for non-FMS cases in DIFS would have to be charged to these non-FMS
cases because FMS funds cannot be used to pay for processing non-FMS cases. In
addition, the 3.8% estimated cost for processing non-FMS cases is based on the 3.8%
charge for FMS cases, which includes the cost of processing transactions in DIFS. There
would have to be an impact on the funds used to pay DFAS for this processing.

DSCA Comment
        e. The sentence regarding direct cite of appropriated funds is incorrect and should
be deleted. The “pseudo” country codes and separate subaccounts ensure proper control
of expiring funds. The financial systems used to execute FMS are not designed for
ordering, delivering, and billing multiple appropriations using direct fund cites. Any
modifications to existing Security Assistance data systems to enable direct cite of
appropriated funds would require additional appropriated funds to support the system
changes required.

In his December 15, 2008, comments, the Director stated that our response did not
identify what “existing systems” should be used instead of DIFS.

Our Response
       e. We disagree with the DSCA Director’s comment that the sentence is incorrect.
We are not suggesting making any modifications or changes to the existing DIFS



                                            43
accounting system. Our recommendation is that DSCA not use DIFS, but control funds
using existing systems that are designed to process appropriated funds. We are referring
to the MILDEP financial and accounting systems that complete the accounting and
related functions, and provide data to the MILDEP FMS systems that provide data to
DIFS (comment 7 to the Background section of the report and comment 4.d to
Finding A).

DSCA Comment
2. Appropriations Transferred Paragraphs. The second paragraph incorrectly states that
“DSCA personnel transferred funds from various DoD appropriations to the FMS Trust
Fund to be used . . ..” Throughout this report, the word “transferred” is used to describe
DSCA actions without further clarification that these actions involved more entities than
just DSCA and reflected a collection into the account for work to be provided. In this
particular paragraph, we would recommend the wording be changed to state “DoD
account holders sub allocated funds from DoD appropriations to DSCA, which placed
them into the FMS Trust Fund to be used. . .”

Our Response
2. We disagree with the DSCA Director’s comment that the statement is incorrect. The
sentence does not state that it is the sole responsibility of DSCA to transfer the funds.
We are referring to the process. SAMM, chapter 11, section 11.3.4, states, “DSCA
(Business Operations Directorate) issues a MIPR to transfer the funds into the FMS Trust
Fund.” DSCA personnel also used the word “transfer” in their December 18, 2007,
memorandum: “DFAS processes a SF 1081 to transfer the funds from the ASFF
appropriation into the appropriate FMS Trust Fund account….” The word “transfer” is
the correct action and terminology. The Principles of Federal Appropriations Law,
volume 1, chapter 2, section 3, “Transfer and Reprogramming,” states, “Transfer is the
shifting of funds between appropriations.” In this process, the funds are shifting from
Army and other DoD appropriations into the FMS Trust Fund appropriation.

DSCA Comment
3. Justification for Transfer Paragraphs.
        a. In response to questions from the DoDIG in regards to justification for the
transfer of these funds, DSCA General Counsel submitted a December 18, 2007
memorandum. This memorandum (included in this version of the DoDIG draft report)
specifically identified the funds and the laws that permitted the transfer. The transfers of
funds and use of the FMS process was directed and authorized by the Deputy Secretary
of Defense through the Secretary of the Army and the Commander, MNSTC-I.




                                             44
Our Response
        a. As stated in the report, the memorandum did not specifically state the authority
to use the FMS Trust Fund, as explained in response to Finding A.1.c. We are aware of
no authority in any of the listed appropriation acts (the DSCA, December 18, 2007,
memorandum provided a list) or elsewhere that permit the commingling of U.S.
appropriated funds with the funds of foreign nations in the FMS Trust Fund. On the
contrary, it would appear to be the intent of Congress that the subject funds be managed
separately and accounted for separately according to the specific reporting requirements
provided in certain of the acts.

The public laws did not provide the authority to transfer the appropriated funds to the
FMS Trust Fund. Likewise, the Deputy Secretary of Defense did not clearly provide
authorization to transfer and use the FMS process for these funds. We agree that the
Deputy Secretary of Defense provided DSCA with managerial authority, but did not
provide authority to transfer appropriated funds to the FMS Trust Fund.

DSCA Comment
        b. The second paragraph in this section incorrectly states that these funds were “.
. . commingled with other funds in the FMS Trust Fund . . .” All funds deposited or
transferred into the FMS Trust Fund are placed in separate accounts that ensure funds are
not commingled.

Our Response
        b. We disagree with the DSCA Director’s comment that the paragraph is
incorrect. We stated that the funds are commingled because all the funds are accounted
for in one appropriation symbol, 9711X8242. Standard Form 1081, the document used to
transfer the funds, shows that the various DoD and Army appropriations are transferred
into the FMS Trust Fund appropriation symbol. We recognize that the funds are
accounted for separately in the DIFS accounting system, but they are in one account
symbol at Treasury level along with funds of foreign governments.

DSCA Comment
        c. A July 26, 2005 memorandum from the Deputy Secretary of Defense is cited in
the draft report. The draft report states that the memorandum “. . . did not provide clear
direction for DSCA to use the FMS Trust Fund to account for these funds. DSCA
manages other appropriations without using the FMS Trust Fund, for example, the
International Military Education and Training program; therefore, DSCA can also
manage the non-FMS funds without using the FMS Trust Fund.” DSCA non-concurs
with DoDIG assessment and interpretation of the DEPSECDEF memorandum and its
direction. There is no basis in fact for this conclusion. The execution of the ISFF and
ASFF funded programs have been regularly and frequently briefed at the highest levels in
DoD.




                                            45
Our Response
       c. We disagree with the DSCA Director’s comment. The July 26, 2005,
memorandum does not state that the FMS Trust Fund should be used to manage the
ASFF funds. As stated before, we agree that the Deputy Secretary of Defense
memorandum provided DSCA with the authority to provide accounting support for
ASFF, but it does not provide the authority to use the FMS Trust Fund. In August 2008,
we requested that DSCA provide any additional support for their statements. The
documents provided were memoranda from the Deputy Secretary of Defense to the Army
and Military Commanders approving the reallocation of ASFF funds for execution.
There was no mention of use of the FMS Trust Fund in any of the documents.

DSCA Comment
      (1) The FMS process is the only process in DSCA that is available for ordering,
procuring, delivering, billing, paying, and accounting for defense articles and services. It
was the judgment of the Deputy Secretary and others that the FMS system would be used
for ASFF transactions.

Our Response
       (1) We did not receive support for the DSCA Director’s statements. The
ordering, procuring, delivering, billing, and paying are accomplished through the
MILDEP systems, as the Director previously stated. The FMS Trust Fund accounting
system (DIFS) performs the accounting based on data from MILDEP systems. As we
have stated, in August 2008, we requested DSCA provide any additional support for their
statements. The documents provided were memoranda from the Deputy Secretary of
Defense to the Army and Military Commanders approving the reallocation of ASFF
funds for execution. There was no mention of use of the FMS Trust Fund in any of the
documents.

DSCA Comment
       (2) Although DSCA manages other appropriations as cited (e.g., IMET), it does
not and cannot manage such non-FMS funds without using the FMS Trust Fund. DSCA
functions in managing the IMET program are summarily those of a fund manager.
DSCA issues (allots) funds to the MILDEPs for their execution and reporting of the
program.

Our Response
       (2) We disagree with the DSCA Director’s statements. The Director did not
provide evidence to support that DSCA cannot provide a similar level of management
without the use of the FMS Trust Fund. We did not state that DSCA should manage the
ASFF and ISFF the same as IMET. We mentioned IMET as an example of programs
using appropriated funds that DSCA personnel manage without using the FMS Trust
Fund. As the Director has stated, the funds are processed through a number of Military
Department systems. We believe that those systems are sufficient to control the
purchasing of goods and services for ASFF and ISFF.



                                             46
DSCA Comment
       (3) The oversight requirement related to providing material and services utilizing
ASFF and ISFF are more in-line with normal FMS activity. Having oversight of all
aspects of providing the material, such as funding, logistics, and delivery information,
requires use of the existing FMS program infrastructure. This infrastructure includes not
only DFAS’ DIFS, but also the MILDEP’s logistics, contracting, and transportation
legacy systems. Most, if not all, of these legacy systems are programmed to generate
accounting information citing 97x8242 for all FMS activity. The 2-position country code
is incorporated to identify the specific FMS customer. In the case of ASFF and ISFF, the
country code not only differentiates the customer but also the legislation that appropriated
the funds.

Our Response
        (3) We disagree with the DSCA Director’s comments. The oversight
requirements may be in line with normal FMS activity, but, as we have stated, the FMS
Trust Fund was designed and established to handle foreign countries funds and we see no
authority for appropriated funds to be transferred into the FMS Trust Fund (9711X8242).
As the Director stated, the various MILDEP systems complete the ordering, procuring,
delivering, billing, and paying. The FMS accounting system (DIFS) performs the
accounting based on data from the MILDEP systems. By keeping the funds within their
appropriations, the Military Departments have better visibility of the funds and can give a
more accurate accounting of the funds to Congress.

DSCA Comment
4. Best Interest of the Government Paragraphs.
       a. In this section, the draft report again incorrectly states that “commingling” of
funds occurred. As stated previously, the funds deposited into the FMS Trust Fund are
accounted for in separate accounts as listed on the FMS General Ledger.

Our Response
        a. We disagree with the DSCA Director’s comment. Our statement regarding
“commingling” is correct. As previously explained, all the funds in the FMS Trust Fund
are in one appropriation symbol, 9711X8242.

DSCA Comment
        b. In the second paragraph of this section it incorrectly states that “. . .it
transferred them to the FMS Trust Fund based on requests for assistance from the various
U.S. commanders in Afghanistan and Iraq. . .” As mentioned above, the funds are
transferred into the FMS Trust Fund only after an LOA has been signed and
implemented.

Our Response
        b. We disagree with the DSCA Director that the statement is incorrect. The report
did not state that the funds are transferred into the FMS Trust Fund before the LOA is
signed and implemented. The report stated that the funds are transferred to the FMS


                                             47
Trust Fund based on requests from commanders for assistance to Afghanistan and Iraq.
Memorandums of Request (MOR) are received from commanders. The MORs are
assigned by DSCA to Implementing Agencies who establish the LOA. When the LOA is
approved, DSCA transfers the funds to the FMS Trust Fund. However, the requests for
assistance are the basis for transferring the funds.

DSCA Comment
        c. The draft report is not correct in questioning whether the Army should be
recording the funds as expended. In doing so, it emphasizes the fact that the Army
records expenditures even when funds have not left the Treasury, which is not the criteria
for recording expenditures. A transfer from a general or special appropriation to a trust
fund is always an expenditure transfer under U.S. Treasury rules so the Army is correct in
recording the funds as expended.

Our Response
        c. We disagree with the DSCA Director’s comments that the report is incorrect.
The draft report does not question whether the Army should be recording the funds as
expended. We agree that the Army is properly recording the transfer. However, if the
Army did not transfer the funds into the FMS Trust Fund, but provided a direct fund
citation instead, the funds would not be recorded as expenditures until they were actually
expended. Reporting the funds as expended gives the impression that the funds have
been disbursed from the Treasury, when in reality they were transferred to another
appropriation. Reporting the funds as expended is misleading to the public and Congress,
giving the impression that the funds have actually paid for services or articles. Instead,
the funds are in the FMS Trust Fund waiting to be disbursed.

DSCA Comment
        d. The draft report states that “. . . DIFS did the departmental-level accounting.”
This is not fully accurate. It is important to note that accounting for the Army
Implementing Agencies is performed in SOMARDS, STANFINS, or the U.S.A. Corps of
Engineers System (CFEMS).

Our Response
       d. We disagree with the DSCA Director’s comment that the sentence is not fully
accurate. DIFS is the departmental-level accounting system used to process these funds.
The DoD FMR, volume 15, chapter 3, paragraph 030208 states, “The Defense Integrated
Financial System (DIFS) is the departmental level central accounting system used at
SAAC [DFAS] to account for the FMS Trust Fund.” We do agree that there are other
systems involved in processing these transactions; however, as noted, DIFS is the
departmental-level central accounting system for the FMS Trust Fund.

DSCA Comment
       e. In the last paragraph it states that “. . . almost $3 billion was still in the FMS
Trust Fund.” As a point of fact, funds remain in the FMS Trust fund until needed for
disbursement for contracted goods and services. During this period before needed for


                                              48
disbursement, those funds in the FMS Trust Fund are in the U.S. Treasury and considered
assets by the Treasury in its calculation of receipts, outlays, and deficit in the Treasury
statements.

Our Response
        e. The DSCA Director’s comment supports our response in Finding A.4.c that the
funds were expended for assistance to the Afghanistan National Army. As stated, the
funds in the FMS Trust Fund are in the U.S. Treasury. However, the Army’s Standard
Form 133 for these funds shows the funds have been expended. As stated in the report,
users of the Army’s Standard Form 133 for ASFF had the mistaken impression that
almost $3 billion in assistance had been provided to the Afghanistan National Army
when it had not.

DSCA Comment
       f. None of the information provided in this section demonstrates support for the
statement that using the Trust Fund to support these programs is not in the best interest of
the U.S. Government. This conclusion is without basis in fact or law.

Our Response
        f. We disagree with the DSCA Director’s statement. We provided factual
information in this report section. As previously stated in our responses to comments
4.a-e under Finding A, we have concluded that it is not in the best interest of the
U.S. Government for DSCA to process the appropriated funds for Afghanistan and Iraq
through the FMS Trust Fund.

DSCA Comment
5. Economical Use of Funds Paragraphs. This paragraph states that using the FMS
Trust Fund “. . . initiated an increase in the cost of purchasing the goods and services
DSCA collected . . .” due to assessment of administrative fees. If the draft report is
alleging that using the FMS Trust Fund to manage these funds is more expensive than
other means, the report needs to identify those other Agencies/processes who could have
accomplished this work for less cost. The Economy Act requires full recovery of costs to
providing goods and services including indirect costs. Past investigative reports have
warned that Agencies providing goods and services to other Agencies must have cost
procedures in place to capture full costs of the transaction.

Our Response
5. We are not alleging that processing these funds through other agencies would be less
expensive. The cost of processing these transactions increase because of the additional
cost of processing the cases in DIFS (a system, not an agency). There is no economic
analysis on the cost of processing ASFF and ISFF transactions because DFAS is paid
through billing hours and does not track DIFS charges by country code.




                                            49
Recommendation A
We recommend that the Director, Defense Security Cooperation Agency discontinue
transferring funds appropriated for the Afghanistan Security Forces Fund and Iraq
Security Forces fund to the Foreign Military Sales Trust Fund, and instead direct cite
these appropriations on all future cases using these funds.

DSCA Comments to Recommendation A
Non-concur. The FMS case and financial management systems, logistical delivery
systems, and case closure mechanisms connect DSCA, DFAS, Implementing Agencies,
and customers. The financial management and logistics tracking are the keys to fiscal
accountability. DSCA does not have the system infrastructure to perform the same
operations through direct cite. Even if such capability were available, it is not clear what
greater efficiency, cost savings, or safeguards would be obtained as the result of this
change.

Our Response
The Defense Security Cooperation Agency comment is nonresponsive. The Director did
not provide any support for the statement that they do not have the system infrastructure
to perform the same operations through direct cite. All the accounting systems the
Defense Security Cooperation Agency personnel identified that support the processing of
the programs reviewed in this report, except the Defense Integrated Financial System, are
standard systems used by the Military Departments to process DoD appropriations. The
Director did not provide any documentation to show why the Defense Security
Cooperation Agency cannot use these systems to control the processing of Afghanistan
and Iraq Security Forces Funds without transferring the funds to the Foreign Military
Sales Trust Fund accounting system. We believe that the report provides sufficient
justification for changing the process.




Defense Security Cooperation Agency comments on
Finding B. Collection of Administrative Fees
DSCA Comment
1. Introductory Paragraphs.
        a. This section states that DSCA “. . . collected administrative fees from
appropriated funds placed into the Foreign Military Sales (FMS) Trust Fund while also
receiving appropriated funds to administer these cases.” That is incorrect. The 3.8%
administrative surcharge collected on all FMS and “pseudo” cases is used to support a
share of the FMS program infrastructure as well as standard case management-related
execution services needed to execute these cases. The Foreign Military Financing (FMF)
appropriated are separate and distinct from the Administrative Surcharge funds and are
provided/used for very specific purposes which do not include execution and
management of FMS or “pseudo” cases.



                                             50
Our Response
       a. Based on the Director’s comments and further discussions with DSCA
personnel, we revised this finding to remove the references to the Foreign Military
Financing appropriation.

DSCA Comment
        b. The second paragraph in this section states that “Administrative funds collected
on FMS cases are not available to pay for non-FMS cases. DSCA collected the fee to pay
for the work involved in executing and managing non-FMS orders. . .” It would be more
accurate to state that “Administrative funds collected on FMS cases are not legally
available to pay for work on non-FMS cases, so DSCA established a charge to pay for the
work involved in executing and managing non-FMS orders. Based on historical
experience, the charge for non-FMS was established at 3.8% (currently the same rate as
FMS).

Our Response
       b. Based on the Director’s comments and further discussions with DSCA
personnel, we revised this finding to remove the references to the non-FMS orders.

DSCA Comment
        c. It is incorrect to state that “. . . collecting millions of dollars in administrative
fees on non-FMS programs improperly augmented their appropriation. . .” As stated
above, the funds collected on FMS programs are not legally available to support work on
non-FMS programs. Therefore, we are required to recover costs. This is done through a
3.8% administrative surcharge. There is no appropriation to fund these administrative
costs. They are funded from the surcharge. There is a Foreign Military Financing
appropriation which serves a different purpose. That should not be confused with the
Administrative Surcharge.

Our Response
       c. Based on the Director’s comments and further discussions with DSCA
personnel, we revised this finding to remove the references to the Foreign Military
Financing appropriation and improper augmentation of their appropriation.

DSCA Comment
        d. We recommend the final paragraph in this section regarding contingency
operations and fees collected be deleted. DSCA is specifically authorized to use the FMS
system to support contingency operations such as the ASFF and ISFF. DoD FMR,
volume 12, chapter 23, paragraph 230307 states “DSCA is responsible for providing
leased equipment, using foreign military (FMS) systems and procedures, when required
to support contingency operations. DSCA is also responsible for directing the
implementation of those contingency operations supported under applicable sections of
the Foreign Assistance Act or Title 10, United States Code, when directed by the USD(P)
to provide this support. Such support may be in response to requests from the
Department of State or requests from the UN [United Nations] for articles and services to


                                               51
support equipment leased under Foreign Military Sales (FMS) procedures. DSCA is
authorized to use the FMS system network to provide such support.”

Our Response
       d. We disagree with the DSCA Director’s recommendation to delete this
paragraph. The paragraph regarding contingency operations explains why DSCA does
not have the authority to collect the administrative surcharge on non-FMS programs
funded by appropriated funds for Afghanistan and Iraq. We do not state in the report that
DSCA cannot use the FMS network for processing contingency operations related cases.

In the paragraph, we state that DSCA should not be collecting the administrative fee on
contingency operations. The statement we used in the draft report is from a DSCA
March 15, 2006, memorandum. Paragraph 1.b.(3) of the Administrative Surcharge and
Program Management Line implementation section of DSCA memorandum I/06-000935-
DBO, “Implementation Instructions for Changes to Foreign Military Sales (FMS)
Administrative Surcharge Structure and Rate (3.8%) (DSCA 06-19),” March 15, 2006,
states that the 3.8% administrative surcharge does not apply to cases established for
Presidential Drawdowns using the S9 country code. DSCA personnel later stated that the
administrative surcharge is not collected on Presidential Drawdowns because the funds
are used for contingency operations. DoD FMR, volume 12, chapter 23, “Contingency
Operations,” states:

       The funding derived from a contingency transfer account is available only for those incremental
       costs incurred in direct support of contingency operation. As such, funds that are transferred into a
       Component’s baseline appropriation are not to be used to finance activities and programs that are
       not directly related to the incremental cost of the contingency.

The administrative cost for processing these Presidential Drawdowns is included in the
FMF Administrative Cost account. As stated in the report, ASFF and ISFF are
considered contingency operations under definitions in the FMR, volume 12, chapter 23.

DSCA Comment
2. Administrative Fee Authority Paragraphs. This section states “DSCA properly
charged 2.5 percent for administrative services on FMS cases. On May 15, 2006, DSCA
increased the administrative surcharge to 3.8 percent for cases that were accepted on or
after August 1, 2006.” The wording of this paragraph implies that the 2.5 percent rate
was “proper” but the 3.8 percent charge is not. We do not believe that was the intent of
the author and recommend the wording be changed to read: “The current administrative
surcharge rate is 3.8%. For cases implemented prior to August 1, 2006, the rate was
2.5% or 3.0% depending on the date of implementation.”

Our Response
2. Based on the Director’s comments and further discussions with DSCA personnel, we
revised this finding.




                                                   52
DSCA Comment
3. Foreign Military Financing Administrative Cost Account Paragraphs.
       a. In the first sentence of the first paragraph in this section, we recommend that
the phrase “. . . sales for non-FMS Programs.” be changed to read “. . . sales for non-FMS
Programs authorized under the AECA and FAA.” for clarity.

Our Response
       a. Based on the Director’s comments and further discussions with DSCA
personnel, we revised this finding to remove the references to the Foreign Military
Financing Administrative Cost account.

DSCA Comment
        b. The statement “We found several instances where it appears DSCA received
appropriated funds and collected administrative fees for the same work.” is not supported
by any analysis in the report. DSCA is not receiving appropriated funds and collecting
administrative fees for the same work. A Security Assistance Organization (SAO) is
authorized under the FAA and AECA and DSCA used General Costs of Administration
FMF funds appropriated in the International Affairs Budget Function to support this
office. Because the Iraq Security Forces Fund program is not part of the International
Affairs Budget request and is not part of the FMS program, DSCA is required to collect
3.8 percent surcharge on cases processed through the FMS system for future Iraq orders.
Iraq cases funded with Iraq national funds are true FMS cases and are also assessed the
3.8 percent surcharge as required by the AECA.

Our Response
       b. Based on the Director’s comments and further discussions with DSCA
personnel, we revised this finding to remove the references to the Foreign Military
Financing appropriation.

DSCA Comment
       c. The word “additional” should be deleted from the phrase “. . . DSCA collected
an additional $196 million in administrative charges directly from. . .” The $196 million
in administrative charges should not be considered together with the FMF monies
received. They are for different purposes and received based on different authorities.
The current wording implies that these duplicate each other --- they do not.

Our Response
       c. Based on the Director’s comments and further discussions with DSCA
personnel, we revised this finding to remove the references to the Foreign Military
Financing appropriation.

DSCA Comment
        d. DSCA is not augmenting its appropriations from outside sources as stated in
the final paragraph of this section. DSCA has specific authority to collect administrative
fees from cases processed for the FMS program. DSCA has no authority to use funds


                                            53
from the General Costs of Administration FMF appropriation to fund work performed
under programs not authorized by the AECA and FAA. Therefore, DSCA must recoup
its costs of administering non-FMS cases not performed under the authority of the AECA
and FAA. In order for this General Cost of Administration funding to be available for
purposes other than support of AECA and FAA authorized programs, the Secretary of
State would have to request that these funds be made available for Title 10 purposes as
part of the annual budget process.

Our Response
       d. Based on the Director’s comments and further discussions with DSCA
personnel, we revised this finding to remove the references to the Foreign Military
Financing appropriation.

DSCA Comment
4. Contingency Operations Paragraphs. We recommend this section be deleted. See our
response to 1.d. of the “Introductory Paragraph” of this section.

Our Response
4. We do not agree with the DSCA Director’s recommendation to delete the section
regarding contingency operations. It remains our conclusion that DSCA should not
collect the administrative surcharge on non-FMS programs funded by appropriated funds
for Afghanistan and Iraq. As previously stated, the report does not state that DSCA
cannot use the FMS network for processing contingency operations related cases.

This paragraph states that DSCA should not be collecting the administrative fee on
contingency operations. We have explained that it is DSCA policy not to collect the
Administrative Surcharge on Presidential Drawdowns cases because they are for
contingency operations. Because ASFF and ISFF are also for contingency operations, the
surcharge should not be collected on these cases either.


Recommendation B
We recommend that the Director, Defense Security Cooperation Agency discontinue
collecting administrative fees on non-Foreign Military Sales Programs and include all
administrative costs for these programs as part of the budget for the Administrative Costs
account in the Foreign Military Financing appropriation submitted by the Department of
State.

DSCA Comments to Recommendation B
Non-concur. This recommendation requires a legislative change. This change would
direct the use of Foreign Operations Appropriations to support DoD programs. We find
it highly unlikely that the State Department would use its limited FMF resources to
provide administrative support for programs that have been widely defended as properly
funded DoD activities. The limited FMF appropriation could not support the level of




                                            54
funding that would be required to sustain the non-FMS programs in Iraq and Afghanistan.
The level of funding from these two programs is greater than most FMF recipients.

Our Response
The Defense Security Cooperation Agency Director’s comment is partially responsive.
Based on the Director’s comments and further discussions with DSCA personnel, we
revised this finding to remove the references to the Foreign Military Financing
appropriation. However, we continue to believe that DSCA should not charge the 3.8%
fee on ASFF and ISFF funded cases because the funds are for contingency operations.
We request that Defense Security Cooperation Agency reconsider its position on the
recommendation and provide comments on the final report.




Defense Security Cooperation Agency comments on
Appendix A. Scope and Methodology

DSCA Comment
1. Review of Internal Controls Paragraph. This paragraph incorrectly states: “It is
DSCA policy not to collect administrative fees on funds place in the FMS Trust Fund for
contingency operations. However, they collected fees on ASFF and ISFF cases
supporting the Iraqi Armed Forces and Afghan National Army, both considered
contingency operations, according to the DoD FMR.” These sentences should be deleted
as they are not true statements. DSCA authority to use the FMS system (which includes
assessment of an administrative surcharge) to support contingency operations is in the
DoD FMR, volume 12, chapter 23, paragraph 230307. In the second comment, the
Director stated that it is true that DSCA does not charge 3.8% on cases established for
Presidential Drawdowns using the S9 country code. He further stated that does not mean
that DSCA has a policy not to collect administrative fees on funds placed in the FMS
Trust Fund for contingency operations.

Our Response
1. We disagree with the DSCA Director’s comment that the paragraph is incorrect. Our
draft report does not state that DSCA cannot use the FMS systems for processing
contingency operation related cases. The referenced statement in the draft report is from
a DSCA March 15, 2006, memorandum. Paragraph 1. b. (3) of the Administrative
Surcharge and Program Management Line implementation section of DSCA
memorandum I/06-000935-DBO, “Implementation Instructions for Changes to Foreign
Military Sales (FMS) Administrative Surcharge Structure and Rate (3.8%) (DSCA 06-
19),” March 15, 2006, states that the 3.8% administrative surcharge does not apply to
cases established for Presidential Drawdowns using the S9 country code. DSCA
personnel later stated that the administrative surcharge is not collected on Presidential
Drawdowns because the funds are used for contingency operations. As stated in the
report, because ASFF and ISFF are also considered contingency operations under DoD



                                           55
FMR, volume 12, chapter 23, DSCA should not be collecting the 3.8% administrative
charge from ASFF and ISFF funds.

DSCA Comment
2. Use of Technical Assistance Paragraph. This sentence should be amended to add the
phrase “. . . and ASFF and ISFF-funded non-FMS cases.” These cases should also have
been reviewed as part of the audit.

Our Response
2. For clarification, we revised the sentence to include the words “non-FMS” cases.




                                           56
                           Final Report
                            Reference




Click to add JPEG file




                         Revised, Page 2




               59
                           Final Report
                            Reference




                         Page 2


Click to add JPEG file

                         Revised




                         Revised




               60
                           Final Report
                            Reference




                         Revised




                         Revised, Page 3




Click to add JPEG file



                         Revised, Page 3




               61
                           Final Report
                            Reference




                         Page 5




Click to add JPEG file




               62
Click to add JPEG file




               63
Click to add JPEG file




               64
Click to add JPEG file




               65
Click to add JPEG file




               66
                           Final Report
                            Reference




                         Revised




Click to add JPEG file
                         Revised




                         Revised




               67
                           Final Report
                            Reference




                         Revised




Click to add JPEG file


                         Removed




                         Removed




               68
                           Final Report
                            Reference




                         Removed




                         Removed




Click to add JPEG file

                         Revised




               69
                           Final Report
                            Reference




                         Page 1




                         Revised




Click to add JPEG file




               70
Defense Security Cooperation Agency Comments,
December 15, 2008




                  Click to add JPEG file




                                 71
Click to add JPEG file




               72
Click to add JPEG file




               73
Click to add JPEG file




               74
Click to add JPEG file




               75
Click to add JPEG file




               76
